audit report



Return to the USDOJ/OIG Home Page



Community Policing Grant to Combat Domestic ViolenceAdministered by the City of Tulsa, Oklahoma, Police Department
GR-80-99-005
February 12, 1999
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of 
the Community Policing Grant to Combat Domestic Violence, Grant No. 96DVWX0016 
administered by the City of Tulsa, Oklahoma, Police Department.  The $54,909 grant, awarded by the Office of Community Oriented Policing Services (COPS), was effective from June 1, 1996, through March 31, 1998.

	Our review did not reveal any material weakness.  However, there were minor errors that we discovered.  These items are discussed in the Findings and Recommendations section of this report.  The activities outlined in the grant application have been implemented.  Our scope and methodology are described in the Appendix.